CREDIT CARDS
APPLICATION AND SOLICITATION DISCLOSURE

INTEREST RATES AND INTEREST CHARGES

Introductory APR for
Purchases( after that a
variable APR will apply)
Annual Percentage
Rate(APR)for Purchases
This APR will vary with the market
based on the Prime Rate.

APR for Cash Advances
This APR will vary with the market
based on the Prime Rate.

APR for Balance Transfers
This APR will vary with the market
based on the Prime Rate.

ELITE
VISA SIGNATURE

PREMIER
REWARDS

ADVANTAGE
LOW RATE

LIBERTY
STUDENT

CHOICE
SECURED

0.00% for 9 months

1.99% for 9 months

1.99% for 6 months

1.99% for 6 months

NONE

Prime + Margin

Prime + Margin

Prime + Margin

Prime + Margin

Prime + Margin

12.24% - 14.24%

10.24% - 17.24%

8.24% - 16.24%

11.24% - 14.24%

15.24%

Prime + Margin

Prime + Margin

Prime + Margin

Prime + Margin

Prime + Margin

12.24% - 14.24%

10.24% - 17.24%

8.24% - 16.24%

11.24% - 14.24%

15.24%

Prime + Margin

Prime + Margin

Prime + Margin

Prime + Margin

Prime + Margin

12.24% - 14.24%

10.24% - 17.24%

8.24% - 16.24%

11.24% - 14.24%

15.24%

18.00%

Penalty APR
and When it Applies

Minimum Interest Charge
How to Avoid Paying Interest
on Purchases
For Credit Card Tips from the
Consumer Financial
Protection Bureau

This APR may be applied to the entire balance on your account if you make a late payment.
This APR may be applied to your account if you:
1) Make a late payment;
2) Go over your credit limit;
3) Make a payment that is returned, or
4) Do any of the above on another account you have with us.
How Long Will the Penalty APR Apply? If your APRs are increased for any of these reasons, the Penalty APR will apply until you make
six consecutive minimum payments when due.
None
Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on purchases if you pay your
entire balance by the due date each month.
To learn more about factors to consider when applying for or using a credit card, visit the Web site of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

FEES FOR ALL PSFCU CREDIT CARDS
Annual Fee

None

TRANSACTION FEES
 Balance Transfer Fee

3% of transfer amount with a minimum of $5.



Foreign Transaction Fee

1.00% of each multiple currency transaction in U.S. dollars, where a currency conversion occurs
0.80% of each single currency transaction in U.S. dollars, where a currency conversion is not performed



Cash Advance Fee

PENALTY FEES
 Late Payment Fee
 Returned Payment Fee
 Over‐the‐Credit‐Limit Fee

Either $10 or 2% of the amount of each cash advance, whichever is greater. For student cards, the cash advance fee is either $5 or 1% of the
amount of each cash advance.

Up to $37.00
Up to $27.00
None

How We Will Calculate Your Balance. We use a method called “average daily balance (including new purchases).”
Loss of Introductory APR: We may end your introductory APR and apply the Penalty APR if you make a late payment.
Variable Rate: The APR and corresponding monthly periodic rate may increase or decrease. The APR is subject to change quarterly on the first day of the billing cycle to reflect
any change in the Index and will be determined by the Prime Rate as listed in the "Money Rates" section of The Wall Street Journal on the first day of each quarter (January, April,
July, October), to which we add a margin. The APR will never be greater than 18.00%. Any increase in the APR will take the form of additional payments shown as Total
Minimum Payments on the statement. If the Index is no longer available, the Credit Union will choose a new index which is based upon comparable information.
Accuracy: The information about the costs of the card is accurate as of 01/29/16. This information may have been changed after that date. To find out what may have changed,
contact the Credit Union.
* Introductory APR is based on your credit history and other credit factors. After that, Your APR will vary with the market based on the Prime Rate.

